No. 20-1381
IN THE

6upreme Court of tije attteb iikateo
MATTHEW Fox, PROSECUTING ATTORNEY, MERCER
COUNTY, OHIO; JEFF GREY, SHERRIFF, MERCER COUNTY,
OHIO; AND J.K., CRIME VICTIM,
Petitioners,
U.

CHARLES SUMMERS,
Respondent.

On Petition For Writ Of Certiorari
To The Ohio Supreme Court
REPLY IN SUPPORT OF CERTIORARI
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(b) and the April 15, 2020 Order of
this Court, I hereby certify that one copy of the Reply Brief in Support of Certiorari
in Fox v. Summers, No. 20-1381, was sent via Two Day Service to the U.S. Supreme
Court, and one copy was served via Priority Mail and electronic service on all parties
required:
H. Louis Sirkin
Counsel of Record for Respondent
Santen & Hughes
600 Vine Street
Suite 2700
Cincinnati, OH 45202
(513) 721-4450
hls@santenhughes.com

I declare under penalty of perjury that the foregoing is true and correct.

Shay Dvoretzky
Dated: May 18, 2021

